                                                  NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A10120091                                                                        Page 1 of 1


         A university 1 notified us it was beginning an Investigation into an allegation of
         fabr~cation.   Specifically, a post-doctoral researcher could not reproduce the
         subject's results and, when attempting to verify the data with the subject, they
         learned the underlying data for a Table in a graduate student's2 (the subject's)
         dissertation thesis were missing from the lab.3
         Regarding the replication effort that took place, the university's investigation
         committee noted it could not confirm now whether the post-doc conducted the
         experiment with the same standard (a different standard would yield different
         results). With respect to the documentation, some of the documentation for the data
         that may have originally existed no longer exists. For example, the lab lost the
         entirety of its hard-copy printouts of data collected on this equipment when it
         moved to a new location several years ago, and the subject's personal lab books of his
         thesis research were destroyed by a flood several years ago.
         Ultimately, the committee found the subject was credible, had lacked motivation to
         fabricate this data, and had reasonably addressed the missing data when it was
         originally brought to his attention. It concluded the preponderance of evidence was
         insufficient to overcome the presumption of innocence. We concurred with the
         university that there is insufficient evidence to support a finding of research
         misconduct. 4 Accordingly, this case is closed with no further action taken.




               2                            was a graduate student supported by                         NSF
          grant
              3 The data were purportedly generated over a decade ago in 1999, and the replication
          experiments took place approximately 2 years later. The allegations were informally examined at
          that time , but ultimately were not pursued.
              4 The university used the definition of misconduct applicable at the time. Likewise, we used our
          definition of misconduct in science applicable then.




NSF OIG Form 2 (11 /02)
